U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                  U.S. PATENT AND
               TRADEMARK OFFICE


Information Security in Contracts Needs
 Better Enforcement and Oversight
               Final Inspection Report No. OSE-17455
                                      September 2005




                         PUBLIC RELEASE



                             Office of Systems Evaluation
U.S. Department of Commerce                                                                     Final Inspection Report OSE-17455

Office of Inspector General                                                                                        September 2005





                                                             CONTENTS


EXECUTIVE SUMMARY ................................................................................................. i 


INTRODUCTION .............................................................................................................. 1 


OBJECTIVES, SCOPE, AND METHODOLOGY............................................................ 4 


FINDINGS AND RECOMMENDATIONS....................................................................... 5 


I. 	 Most USPTO Contracts Include IT Security Clauses, but Important Requirements Are Not 

     Implemented Properly or Are Not Enforced ............................................................... 5 


      A. USPTO Has Incorporated the IT Security Clauses into Most Contracts............... 5 


      B. Contract Risk Levels Are Not Designated Correctly, and Background 

         Screenings May Be Too Low for Many Contractor Employees ........................... 6 


      C. Failure to Certify and Accredit Contractor Systems Places USPTO at Risk ........ 8 


Appendix........................................................................................................................... 13 


Attachment: USPTO's Response 

U.S. Department of Commerce                                                 Final Inspection Report OSE-17455

Office of Inspector General                                                                    September 2005




                                        EXECUTIVE SUMMARY 


The Federal Information Security Management Act (FISMA) requires agencies to develop and
implement programs to protect information and information technology (IT) systems. FISMA
requirements apply to all federal contractors who use federal information, or operate or have
access to federal information systems on behalf of an agency. The Office of Management and
Budget (OMB) has cited contractor security as a government-wide challenge since 2001and has
directed agencies and the OIG to report on agency oversight of contractor IT security.

In response to findings and recommendations made by OIG in May 2002,1 the Department
issued two contract clauses containing IT security requirements. USPTO, as part of its
information security program, adopted these clauses to protect information and IT systems from
risks posed by contractors who connect to its network or process or store sensitive agency
information. The clauses require contractors to comply with USPTO’s IT security handbook,
have their IT systems certified and accredited,2 and have their employees undergo appropriate
background screening.

We conducted our evaluation to determine whether USPTO had incorporated the two security
clauses into IT service contracts and to evaluate the implementation of the clause requirements.
We found that most contracts in our sample contained the clauses and that contractor employees
receive IT security awareness training. However, USPTO is not properly implementing key
requirements in the clauses and in some cases is not enforcing them. Specifically, USPTO
designated all contracts in our sample as low risk, even though the relevant criteria suggest that
some contracts should have high or moderate risk designations. In these cases, contractors did
not receive the appropriate background screening. In addition, contractors have not submitted
certification and accreditation packages, and therefore no contractor IT system has been certified
or accredited.

We recommend that the Under Secretary of Commerce for Intellectual Property and Director of
the U.S. Patent and Trademark Office direct appropriate management officials to ensure that
contractor IT security is improved by, among other things, developing plans for establishing
appropriate risk designations for contracts and certifying and accrediting contractor systems.
(See page 12.)

                                                        …

In its September 29, 2005, response to our draft report, USPTO generally concurred with our
findings and outlined the corrective actions planned or underway for each recommendation. We
synopsize USPTO’s response following each recommendation (see pp. 11-12), and in one

1
  U. S. Department of Commerce Office of Inspector General, May 2002. Information Security Requirements Need
to be Included in the Department’s Information Technology Service Contracts. Report No. OSE-14788.
2
  Certification is the comprehensive assessment of the management, operational, and technical controls of an
information system to determine if the controls are implemented correctly, operating as intended, and producing the
desired outcome. Accreditation is management’s formal authorization to allow a system to operate, and acceptance
of remaining system vulnerabilities.


                                                         i
U.S. Department of Commerce                                 Final Inspection Report OSE-17455
Office of Inspector General                                                    September 2005

instance, we provide a comment on the response. USPTO’s complete response is included as an
attachment to this report. The actions identified by USPTO are responsive to our
recommendations and when implemented should improve IT security for contractor employees
and contractor systems.




                                             ii
U.S. Department of Commerce                                              Final Inspection Report OSE-17455

Office of Inspector General                                                                 September 2005


                                            INTRODUCTION 


The Federal Information Security Management Act (FISMA)3 requires agencies to develop and
implement programs to protect information and information technology (IT) systems. As
agencies increasingly rely on contractors to support their missions, it has become apparent that
risks to government information and IT systems could be introduced through contractor
employees and their IT systems. For example, contractor operations may lead to

    •   Unauthorized modifications to information;
    •   Introduction of malicious software;
    •   Unauthorized disclosure of, or access to, sensitive information; and
    •   Disruption to government operations by IT system failures or denial of access.4

FISMA requires agencies to review their information security program annually and Offices of
Inspector General (OIGs) to independently evaluate agency IT security programs. How these
programs are being applied to contractors is a focus of this year’s FISMA reporting instructions
issued by the Office of Management and Budget (OMB): Chief Information Officers (CIOs) and
OIGs are directed to report on agency oversight of contractor IT security. OMB’s instructions
emphasize that contractors’ IT security procedures must be “identical, not equivalent” to those of
federal agencies. In support of our 2005 FISMA reporting requirements, we evaluated USPTO’s
efforts to implement IT security requirements for contractor employees and systems.

USPTO plays an integral role in the nation’s intellectual property system. As part of its mission,
the agency is responsible for awarding and protecting patents and trademarks. To perform these
functions better, USPTO’s 21st Century Strategic Plan calls for total electronic processing for
patents and trademarks. Because the information contained in both is critical to protecting the
rights of patent/trademark holders and can impact significant business investment decisions,
USPTO systems need to safeguard the confidentiality, integrity, and availability of the
information. USPTO relies heavily on contractor employees and IT systems to accomplish this
transformation and support operations.

USPTO IT Security Policy

USPTO’s IT security policy, Agency Administrative Order No. 212-4, aims to establish a secure
IT environment to protect agency information and IT systems. The policy applies to both
USPTO employees and contractors, and authorized creation of the IT security handbook. The
handbook identifies specific security practices and refers to specific procedures contained in the
agency’s technical standards and guidelines.




3
 Title III, E-Government Act of 2002 (P.L. 107-347). 

4
 U.S. Government Accountability Office, April 2005. Information Security: Improving Oversight of Access to

Federal Systems and Data by Contractors Can Reduce Risk.



                                                       1

U.S. Department of Commerce                                                   Final Inspection Report OSE-17455

Office of Inspector General                                                                      September 2005


IT Security Clauses

In response to a May 2002 OIG report,5 which found that Commerce contracts frequently lacked
adequate security provisions, the Department issued two contract clauses containing IT security
requirements:

    •	 Security Requirements for Information Technology Resources (Commerce 

       Acquisition Regulations (CAR) 1352.239-73) (clause 73). 


    •	 Security Processing Requirements for Contractors/Subcontractor Personnel for 

       Accessing DOC Information Technology (CAR 1352.239-74) (clause 74).


USPTO modified these clauses to reference its own policy and guidance without changing their
substantive requirements. Clause 73 requires that contractors comply with USPTO’s IT security
handbook; submit a certification and accreditation (C&A)6 package 14 days after contract award
for systems that connect with USPTO networks, or process or store sensitive information; and
that USPTO approve or reject the C&A package. Clause 74 requires security awareness training
for contractor personnel and designation of the contract risk level (i.e., high, moderate, or low) to
define the type of background screening needed. In late 2003, the USPTO Office of
Procurement directed contracting officers to incorporate clauses 73 and 74 into all new service
contracts, as well as to insert clause 74 into all existing service contracts and clause 73 into all
applicable existing contracts.7

Roles and Responsibilities

The task of imposing security requirements on contractors relies on the expertise of USPTO
personnel spread across several operating units, as follows:

    Office of Procurement/Contracting Officers
       •	 Authorized to enter into and modify contracts.
       •	 Responsible for contractor compliance with contract terms and for safeguarding
           USPTO interests in procurements.
       •	 Appoint contracting officer’s representative (COR).


5
  U. S. Department of Commerce Office of Inspector General, May 2002. Information Security Requirements Need
to be Included in the Department’s Information Technology Service Contracts. Report No. OSE-14788. A
subsequent OIG evaluation found that the Department had made progress in incorporating the new IT security
clauses into contracts, but provisions for controlling contractor access to Department systems and networks were
generally absent, and there was little evidence of contract oversight or of coordination among contracting, technical,
and information security personnel. (U.S. Department of Commerce Office of Inspector General, September 2004.
Office of The Secretary: Information Security in Information Technology Security Contracts Is Improving, but
Additional Efforts Are Needed. Report No. OSE-16513).
6
  Certification is the comprehensive assessment of the management, operational, and technical controls of an
information system to determine if the controls are implemented correctly, operating as intended, and producing the
desired outcome. Accreditation is management’s formal authorization to allow a system to operate, and acceptance
of remaining system vulnerabilities.
7
  USPTO Office of Procurement told us that it modified about 35 contracts in early 2004 to include both clauses.


                                                          2

U.S. Department of Commerce                                    Final Inspection Report OSE-17455
Office of Inspector General                                                       September 2005

   Office of Chief Information Officer - Office of Acquisition Management (OCIO-OAM)
      •	 Directs the acquisition of IT products and services to support, develop, and maintain
          USPTO automated information systems.
      •	 Serves as COR for USPTO-wide IT contracts, providing day-to-day contract
          administration.

   OCIO - IT Security Program Office (ITSPO)
     •	 Develops and implements IT security to safeguard USPTO information and IT
         systems.
     •	 Provides IT security guidance and technical assistance.
     •	 Works with contractors to establish access to USPTO network and IT systems.

   Office of Security
      •	 Provides leadership on USPTO security programs.
      •	 Processes personnel security/suitability and security clearances.
      •	 Completes contractor suitability investigations.

   Operating Unit Personnel
      •	 Determine potential adverse impact on an organization if there is a breach of security.
      •	 Define contract requirements, which in turn determine contract risk designation and
          whether certification and accreditation of contractor IT system is required.
      •	 Senior manager serves as authorizing official for the accreditation of contractor IT
          systems.




                                               3

U.S. Department of Commerce                                                   Final Inspection Report OSE-17455

Office of Inspector General                                                                      September 2005


                         OBJECTIVES, SCOPE, AND METHODOLOGY 


The objective of this review was to determine whether clauses 73 and 74 have been incorporated
into IT service contracts and how USPTO has implemented their requirements, particularly in
contracts that may require contractor systems to connect with the USPTO network or that allow
contractor systems to access or store sensitive information.

To satisfy our objective, we selected          Table 1. Contract Sample
a judgmental sample of 10 current
                                                                                                      Estimated
contracts from listings provided by                    Contract Description
                                                                                      Number of
                                                                                                         Value
                                                                                      Contractors
USPTO and the Department. The                                                                       (in $ millions)
estimated value of the sample is $1.7          IT product assurance                        1               3
billion. (See table 1.) We reviewed
                                               Systems Engineering and
contract files to determine whether            Technical Assistance (SETA)
                                                                                           2              72
the contracts contained the clauses            Systems Development and
and interviewed managers and staff                                                         2             530
                                               Integration (SDI)
from the Office of Procurement,                Patent Data Capture                         1             876
OCIO-OAM, OCIO-ITSPO, Patent                   System engineering for proprietary
                                                                                           1                5
Office, and Office of Security.                software
                                               Agency-wide administrative
                                                                                           1             192
                                               support services
As our evaluation criteria, we used
                                               Policy development for electronic
clauses 73 and 74, FISMA,                                                               1                   5
                                               filing and records management
Commerce’s IT Security Program                                                          1            Less than
Policy and Minimum                      Network vulnerability testing
                                                                                                       100K
Implementation Standards, USPTO’s              Total Estimated Value                                $1.7 billion
IT security policy, and NIST
guidance. We conducted our              Source: Estimated values obtained from list of IT service contracts
                                        provided by USPTO Office of Procurement, April 7, 2005.
evaluation in accordance with the
Inspector General Act of 1978, as
amended, and the Quality Standards for Inspections issued by the President’s Council on
Integrity and Efficiency. We performed our fieldwork between April 2005 and July 2005.




                                                        4

U.S. Department of Commerce                                                   Final Inspection Report OSE-17455

Office of Inspector General                                                                      September 2005


                               FINDINGS AND RECOMMENDATIONS 


I.	 Most USPTO Contracts Include IT Security Clauses, but Important Requirements Are
    Not Implemented Properly or Are Not Enforced

We found that most of the contracts we reviewed contain the IT security clauses and that
contractor employees receive IT security awareness training. However, USPTO is not properly
implementing key requirements in the clauses and in some cases is not enforcing them. For
example, the agency designated all contracts in our sample as low risk—meaning contract
employees undergo a minimal background investigation, but the relevant Commerce Acquisition
Manual (CAM) criteria suggest that some contracts should have high or moderate risk level
designations; thus, many contractor employees should receive more rigorous background
screenings commensurate with the potential impact an individual in that position could have on
USPTO operations. Moreover, contractors have not submitted C&A packages, and therefore
none of their systems has undergone certification testing or received accreditation.

A. USPTO Has Incorporated the IT Security Clauses into Most Contracts

Eight of the 10 contracts in our sample contained both IT security clauses. Among the 8 were
recently awarded contracts as well as several that were in effect in 2004 but had been modified to
include the clauses. USPTO did not document its decisions to keep the clauses out of the
remaining 2 contracts, so we asked agency personnel to explain the rationale for the exclusions.
They stated that in one case, the contractor was not connected to the USPTO network and did not
have access to sensitive agency information. Therefore, the requirements of the clauses were not
applicable. There are currently no open task orders under this contract, but if new task orders are
issued, USPTO needs to evaluate whether the contractor will have access to sensitive
information or connectivity to its network and should add the clauses as warranted.

The other contract was a task order under a General Services Administration (GSA) contract for
IT security vulnerability testing.8 The project manager stated that the clauses were not included
because the nature of the contract work would cause the contractor to violate the IT security
requirements established by clause 73.

We do not agree with the decision to exclude the clauses from this task order because the work it
authorized gave the contractor access to USPTO systems and generated sensitive data. Yet, the
contractor’s personnel were not subject to background screening, and the contractor’s systems
were not certified and accredited. USPTO subsequently released another solicitation for
vulnerability testing that did not contain the IT security clauses under a GSA contract, but agreed
after our discussions with the contracting officer, to incorporate clauses 73 and 74 into the
solicitation. We remain concerned, however, that there may be other task orders under
government-wide contracts that should, but do not, contain the IT security clauses and that
USPTO’s contract review and oversight processes are not ensuring that they are added.



8
 The task order states that the contractor would mimic an external attacker trying to penetrate the target systems,
which contain sensitive but unclassified USPTO data.


                                                          5

U.S. Department of Commerce                                                 Final Inspection Report OSE-17455
Office of Inspector General                                                                    September 2005

B. Contract Risk Levels Are Not Designated Correctly, and Background Screenings May
   Be Too Low for Many Contractor Employees

One way the government has traditionally sought to protect its assets is to subject employees to
background screening. The level of scrutiny a federal employee receives is dictated by the
sensitivity of the position he holds—that is, the damage an individual, by virtue of his position,
could cause to the efficiency or integrity of agency operations or national security. As the
government’s reliance on contractors has increased, contractor employees working at
government facilities have been subjected to screening as well. Clause 74 expands this
requirement by mandating screening, regardless of location, for contractor employees who have
access to government IT systems or who use IT systems that are interconnected with agency
networks.

Contractor screening is based on the level of risk to the government posed by the contract. The
associated risk designation (high, moderate, or low) defines the extent of screening. Clause 74
provides that contract risk level determinations be made in accordance with section 1337.70 of
the Commerce Acquisition Manual (CAM).9 The appendix to this report presents the current
CAM criteria for designating contract risk levels. It should be noted, however, that these criteria
are undergoing change in response to a new security control framework developed by NIST.10
With the new framework, risk is to be determined not only by the function an individual
performs, but also by the potential impact on an organization should certain events occur that
jeopardize information and information systems. The Department’s CIO has adopted the new
framework in the recently-revised Commerce IT security policy and has initiated an effort to
have the relevant Departmental suitability, security, and acquisition policies and guidance
updated accordingly.

USPTO designated all the contracts in our sample as low risk. As a result, the employees
working under these contracts were subject to a National Agency Check and Inquiries (NACI)
investigation, one of the least comprehensive screening levels. As shown in table 2, the relevant
CAM criteria suggest that some contracts in our sample should have high or moderate risk level
designations. For example, the patent data capture contract gives contractors access to patent
applications before they are published. Because the potential to unfairly exploit the information
contained in patent applications is so great, federal law, 35 USC 122, prohibits its disclosure.

We were unable to determine USPTO’s criteria for designating contract risk levels because the
contract files contained no documentation regarding the determinations. To understand these
decisions, we discussed the designations with agency personnel, who offered two explanations:

     •	 USPTO information is not classified or designated national critical, so higher risk
        designations are unnecessary.


9
  CAM 1337.70 directs a program office representative, typically the COR, to make contract risk level designations
in conjunction with operating unit management, office of security, and the procurement office. In section (a)5 of
clause 74 states that the contracting officer makes contract risk level designations.
10
   NIST Special Publication 800-53, Recommended Security Controls for Federal Information Systems, February
2005.


                                                        6

U.S. Department of Commerce                                               Final Inspection Report OSE-17455
Office of Inspector General                                                                  September 2005

     •	 Agency personnel who manage the contracts or perform similar work are in positions
        designated low risk; therefore, contractor employees should have the same risk
        designations as their agency counterparts.

While these explanations Table 2. USPTO Risk-Level Designation Compared to CAM Criteria
may have contributed to
improper risk level                    Contract Work
                                                               USPTO
                                                                      CAM Risk
                                                                Risk                Relevant CAM Criteria
determinations, an                       Description
                                                                Level
                                                                        Level
agency-wide preference
                                                                               Designing and operating a
for operating in a low-                                                        computer system that includes
risk environment              System Design and Integration                    ADP hardware, software,
appears to underlie the       (SDI) contracts–System design                    and/or data communications,
                              and development, allowing                        regardless of the sensitivity of
problem. The low-risk         access to operational systems
                                                                Low     High
                                                                               the data.
designations of the           and underlying IT
contracts in the sample       infrastructure. (2 contracts)                    Access to a computer system
                                                                               that could result in grave
are not anomalies.                                                             damage or in personal gain.
USPTO senior managers Patent Data Capture contract–                            Access to a computer system
told us that nearly all       Managing patent applications,             High   during the operation or
agency contracts are          allowing access to pre-                          maintenance process that could
                              publication patent applications,                 result in grave damage or in
designated low risk.          confidentiality required by 35
                                                                Low
                                                                               personal gain.
Further, an                   USC 122. (1 contract)
overwhelming                                                          Moderate Work involving access to
                                                                               sensitive information.
percentage of USPTO
                              System Engineering and
positions are similarly       Technical Assistance contract
designated low risk.          (SETA)–Developing and
                                                                               Planning and implementing a
USPTO’s IT security           implementing USPTO IT
                                                                Low     High   computer security program
                              security program, allowing
handbook strongly             access to security plans, and
favors low-risk               proprietary/confidential
designations, stating that information. (1 contract)
agency contracts should
require NACI screening. The handbook neither provides high or moderate risk designations as
alternatives, nor does it describe when high or moderate risk designations are appropriate.

At our exit conference, USPTO officials expressed serious concerns about the possibility of
having more comprehensive background screenings than the NACI investigation, as described
above, citing the financial burden as well as delays in performing work while screenings are
being performed, which they believe could impact operations. We note, however, that after pre
employment checks, clause 74 and CAM 1337.70 both allow contractors and employees to start
work prior to completion of the appropriate investigation so long as the process is initiated 3
days after work commences. This is not to diminish the importance of investigative screening,
but rather gives agencies some flexibility to secure agency assets and information while
maintaining operations.11 Another flexibility is that even if a contract is designed as high or
medium risk, some employees may be screened at a lower level as appropriate for their work as

11
   Clause 74 states, “At the option of the government, interim access to DOC IT systems may be granted pending
favorable completion of a pre-employment check. Final access may be granted only on completion of an appropriate
investigation based upon the risk level assigned to the contract by the Contracting Officer.”


                                                       7

U.S. Department of Commerce                                                   Final Inspection Report OSE-17455
Office of Inspector General                                                                      September 2005

long as adequate controls are established to ensure they do not perform higher risk work, or gain
access to information or systems for which they are not screened. USPTO needs to develop a
plan and schedule for reviewing contract risk designations and modifying them as appropriate.

Completing appropriate background screening is the initial step in overseeing contract IT
security. Background screening is designed to identify individuals who pose a risk to
government assets and operations based on past conduct and associations. However, screening
alone does not effectively safeguard government information and IT systems because individuals
who have successfully passed the screening process can introduce risks, either intentionally or
not. Vulnerabilities in contractor systems that contain sensitive agency information or connect to
an agency network can disrupt agency operations or allow unauthorized access to information.
Certifying and accrediting contractor systems guards against such threats by ensuring technical,
operational, and management controls work as intended.

C. Failure to Certify and Accredit Contractor Systems Places USPTO at Risk

Certification and accreditation is an integral part of an agency’s information security program.
Certification is the formal testing of an IT system’s security controls to determine whether they
are operating as intended and producing the desired outcome. With this information, agencies
can decide, based on risk, how best to minimize the potential for disruption to operations.
Accreditation is management’s formal authorization to allow a system to operate, and acceptance
of remaining system vulnerabilities.

Contractor Systems Are Not Certified or Accredited

Departmental and USPTO IT security programs provide for IT system certification and
accreditation. Clause 73 requires contractor IT systems to undergo the C&A process when they
either are connected to a USPTO network, or process or store sensitive agency data. The C&A
package must be submitted within 14 days after contract award.12 Packages must include a risk
assessment, system security plan, contingency plan, system test plan and test results, and the
certifier’s recommendation.

None of the USPTO contractor systems including those in our sample has been certified and
accredited, nor had any of the contractors submitted a C&A package,13 even though the 14-day
deadline for submission has long passed. The failure to certify and accredit contractor systems is
particularly troubling because most systems in our sample are operational and connected to the
USPTO network or contain sensitive agency data without the assurance that they are adequately
secure.

12
   After we completed our fieldwork for this report, we met with officials from the Department’s OCIO and OAM to
raise concerns about the feasibility of the 14-day deadline. They told us that the Department is considering ways to
improve implementation of the C&A requirement and are aware that 14 days to complete a certification and
accreditation package is unreasonable. The Department’s IT Security Program Manager is interpreting the 14 days
to be for the contractor to submit to the agency its detailed plans for completing the certification and accreditation
process.
13
   One contractor submitted elements of a draft C&A package in September 2004, but no further action was taken
on it after the ITSPO proposed revisions.


                                                          8

U.S. Department of Commerce                                              Final Inspection Report OSE-17455

Office of Inspector General                                                                 September 2005



We are not the first to raise concerns about the risks of USPTO contractor systems and
compliance with IT security requirements. Last September, the agency issued a report of its
own, summarizing vulnerabilities of contractor systems in all security control areas. The report’s
primary recommendation was for USPTO to better enforce existing IT security contract
requirements.14

Factors Contributing to Noncompliance with the C&A Requirement

Several factors explain why contractors have ignored the C&A requirement:

      •	 USPTO did not clearly communicate the magnitude and importance of the C&A 

         requirement in contract solicitations and modifications. 


      •	 Once clause 73 was in the contracts, the agency did not administer the C&A requirement
         in a manner that promoted compliance.

      •	 None of the involved USPTO operating units provided the leadership necessary to
         coordinate the roles of contracting officers, CORs, and ITSPO. This coordination is
         required since various individuals have complementary roles in overseeing contractors’
         adherence to security policies.

Each point is discussed in more detail below.

Failure to communicate the magnitude and importance of the C&A requirement. Clause 73
establishes a 14-day deadline for submission of the C&A package because of the potential for
disruption to government operations once work under the contract begins. Contractors must
recognize and understand C&A requirements when solicitations are issued or contracts are
modified. Below, we identify several ways contractors’ awareness of the C&A requirement
could have been improved:

      •	 Contract Deliverable. The C&A package was not identified as a deliverable in
         solicitations or contract modifications. Had it been, contractors might have recognized
         that submission of the C&A package was part of the required contract performance.

      •	 Application of the Requirement. When USPTO modified contracts to include the C&A
         requirement, it did not formally advise contractors whether the requirement applied.
         About 35 contracts were modified in March 2004 to include clause 73, but the C&A
         requirement did not apply to all 35. Some contractors may have been unsure about
         whether the requirement applied to them.

      •	 Elements of a C&A Package. Clause 73 references additional guidance on the elements of
         a C&A package, but such reference, by itself, is insufficient to clearly communicate the
         complexity of the C&A effort, which is a new undertaking for many contractors.

14
     USPTO, September 17, 2004. USPTO Contractor Facilities Security Assessment Executive Overview.


                                                       9

U.S. Department of Commerce                                       Final Inspection Report OSE-17455

Office of Inspector General                                                          September 2005


           Specific direction on what a C&A package must contain should have accompanied
           solicitations and contract modifications. USPTO needs to provide C&A guidance that
           meets OMB’s directive that contractors and federal agencies have “identical, not
           equivalent” IT security procedures.

      •	 C&A Costs. USPTO did not develop cost estimates for certifying and accrediting
         contractor systems. Without estimates, a fixed price for contractors’ C&A efforts could
         not be established. Contractors whose contracts were modified by the addition of clause
         73 would have been more attentive to the C&A requirements if a fixed price was
         associated with the effort. Various USPTO personnel told us that cost has not been an
         issue for contractors; perhaps this is because contractors have done little to comply with
         the C&A requirement. Some USPTO personnel acknowledged knowing first-hand of the
         significant cost and time necessary to complete C&A. Without estimates or established
         contract prices, there is greater uncertainty as to USPTO’s financial liability for
         implementation of the C&A requirement. In the event that contractors seek additional
         funding to comply with the C&A requirement, USPTO could pay more than it otherwise
         would have because there is no contract pricing or cost estimates for assessing the
         reasonableness of contractors C&A costs.

Failure to administer the C&A requirement in a manner that promoted contractor compliance.
Even though the C&A requirement was added to contracts, contractors were not given reason to
think certification and accreditation was a USPTO priority. For all the contracts in the sample,
the 14-day deadline passed without submission of C&A packages.15 From our review of contract
files and requests for USPTO documents, we found no documentation indicating that, prior to
expiration of the deadline, USPTO:

       •	 Warned contractors the deadline was approaching;
       •	 Informed them that clause 73 allows for contract termination when they do not satisfy
          the C&A requirement; or
       •	 Extended the deadline, or informed contractors that a new deadline would be established.

After the deadlines expired, no money was withheld for not submitting C&A packages, nor was
access to sensitive information or the USPTO network curtailed. By not using any of the tools
available to address noncompliance with the contracts, contractors came to the conclusion that
the C&A process was not a priority for USPTO.

Failure to coordinate the roles of contracting officers, CORs, and ITSPO. Finally, the absence
of strong leadership from USPTO personnel responsible for implementing contractor IT security
contributed to the noncompliance with C&A requirement. At the time of our fieldwork, ITSPO
personnel were working to secure contractor connectivity to the agency’s network and provide
detailed direction on C&A packages. The difficulty of this effort, which was directed toward a
single contractor, highlights the need for coordination among the USPTO operating units
overseeing contractor IT security. ITSPO provided us with a copy of a draft appendix to the IT
security handbook, which attempts to delineate responsibilities for IT security in contracts. As

15
     See footnote 10.


                                                 10 

U.S. Department of Commerce                                              Final Inspection Report OSE-17455
Office of Inspector General                                                                 September 2005

noted in our September 2004 report on contractor IT security,16 contracting officers, CORs,
system owners, and ITSPO have significant and complementary roles in overseeing contractors’
adherence to appropriate security policies. These individuals need to work together to protect
USPTO operations from potential risks arising from contractors’ network connectivity or access
to sensitive information. While USPTO ultimately must decide the best way to coordinate
oversight of contractor IT security, the CORs’ familiarity with the operational needs of the
agency, the contractor, and various security issues appear to make the COR position a strong
candidate for taking the lead in coordinating the involvement of the various individuals involved
in contractor IT security oversight.


Recommendations

The Under Secretary of Commerce for Intellectual Property and Director of the U.S. Patent and
Trademark Office should direct appropriate management officials to ensure that:

1.	 A plan and schedule are developed for certifying and accrediting contractor systems that
    connect to the USPTO network, or process or access sensitive agency information.

        a.	 As part of the planning, develop cost estimates for addressing USPTO budget needs
            and contractor funding requests.
        b.	 Improve communication with contractors so they are fully aware of specific C&A
            requirements and USPTO expectations.

Synopsis of USPTO’s Response.
USPTO agreed with this recommendation. USPTO stated that it would work with the
Department CIO Office and OIG to establish criteria for determining risk levels. USPTO also
indicated that it would develop a plan and schedule for identifying contractor systems requiring
C&A and for performing C&A. USPTO intends to develop procedures to improve
communications with contractors about C&A requirements and to identify the C&A
requirements as a priced deliverable in solicitations or contract modifications.

2.	 Contractor systems are certified and accredited in accordance with FISMA and implementing
    regulations.

        a.	 Designate appropriate USPTO program officials responsible for accrediting systems.
        b.	 Assign USPTO personnel to participate in the certification process.
        c.	 Test security control at a level that corresponds to risks associated with the system.

Synopsis of USPTO’s Response.
USPTO agreed with this recommendation, stating that it will review risk designations, designate
a program official to oversee contractor C&A activities, and assign USPTO personnel to
participate in all aspects of contractor C&A efforts. USPTO also pointed out that NIST Special

16
  U.S. Department of Commerce Office of Inspector General, September 2004. Office of the Secretary: Information
Security in Information Technology Security Contracts Is Improving, but Additional Efforts Are Needed, OSE
16513.


                                                      11 

U.S. Department of Commerce                                              Final Inspection Report OSE-17455
Office of Inspector General                                                                 September 2005

Publication 800-60, Guide for Mapping Types of Information and Information Systems to
Security Categories, generally sets sensitivity data for intellectual property at the “low” level.

OIG Comment on USPTO Response.
It should be recognized that while NIST Special Publication 800-60 generally sets sensitivity
levels for intellectual property as “low,” this guidance specifically identifies pre-published patent
applications as having a moderate impact level and identifies 35 U.S.C. § 122 as a Federal statute
requiring protection of pre-publication from disclosure.17

3.	 CORs, managers, and security officers understand the criteria for determining appropriate
    contract risk level designations.

Synopsis of USPTO’s Response.
USPTO agreed with this recommendation. USPTO stated that it would develop guidelines, to
include documentation of decision making, to implement criteria for determining contract risk
level designations.

4.	 A plan and schedule are developed for reviewing existing contract risk designations and
    modifying them as appropriate.

Synopsis of USPTO’s Response.
USPTO agreed with this recommendation. USPTO stated that it would review existing contract
risk level designations and make modifications where appropriate.

5.	 IT security clauses are incorporated into all new task orders under government-wide service
    contracts.

Synopsis of USPTO’s Response.
USPTO agreed with this recommendation. USPTO stated that it will review task orders under
government-wide contracts for compliance with contractor IT security requirements and include
a line item for C&A deliverables where appropriate.

6.	 The draft appendix in the IT security handbook—which establishes roles and responsibilities
    for implementing IT security in acquisitions—is reviewed and modified as needed.

Synopsis of USPTO’s Response.
USPTO agreed with this recommendation. USPTO stated that OCIO has revised Appendix W
for review within USPTO and that final updates will be made as needed.




17
   NIST Special Publication 800-60, Volume II: Appendixes to Guide for Mapping Types of Information and
Information Systems to Security Categories, June 2004, pp. 215-216 and Appendix E.



                                                     12 

U.S. Department of Commerce                                     Final Inspection Report OSE-17455

Office of Inspector General                                                        September 2005


Appendix
                              Risk Levels for Nonclassified Contracts

              Criteria from Commerce Acquisition Manual 1337.70, Attachment 1
               “Security Processing Requirements for On-Site Service Contracts”

High Risk
   •	 Work which involves continuous foreign travel of 90 days or more under the auspices of
      DOC;
   •	 Work involved in functions or in operations of the Department that are critical to the
      accomplishment of the mission of the Department;
   •	 Work involved in investigative, compliance, or senior level auditing duties;
   •	 Work which occurs during restricted hours within a DOC building which houses
      classified information or equipment, and which is not supervised by an appropriately
      cleared government employee, where appropriate physical security measures are not in
      place to prevent unauthorized disclosure;
   •	 Work which involves fiduciary, public contact, or other duties involving the highest
      degree of public trust;
   •	 ADP work involved in:
          o	 Planning, directing, and implementing a computer security program;
          o	 Directing, planning, designing, and operating a computer system that includes
              ADP hardware, software, and/or data communications, regardless of the
              sensitivity or classification of the information stored on the system; or
          o	 Access to a computer system, during the operation or maintenance process, that
              could result in grave damage or in personal gain; and
          o	 Any other work designated High Risk by the contracting officer or the head of the
              operating unit or departmental office.

Moderate Risk
  •	 Work which involves free access and movement within a DOC building which houses
     classified information or equipment during normal work hours with little or no
     supervision by an appropriately cleared government employee;
  •	 Work which occurs during restricted hours within a DOC building which houses
     classified or sensitive information or equipment even though supervised by a government
     employee;
  •	 ADP work in which the incumbent will be responsible for the direction, planning, design,
     operation, or maintenance of a computer system, and whose work is technically reviewed
     by government personnel processed at the Critical–Sensitive level or above to ensure the
     integrity of the system;
  •	 Work which requires access to sensitive information (information protected under the
     Privacy Act or Title 13, etc); and
  •	 Work involving foreign travel less than 90 days duration.

Low Risk
Work that does not fall into any of the above categories and would be equivalent to a low risk
designation if the individual was performing the work as an employee.


                                                13 

Attachment
